U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




         NATIONAL OCEANIC AND
   ATMOSPHERIC ADMINISTRATION

                        Process for Reducing
    The Critical Hydrographic Survey Backlog
             Lacks Key Management Controls


            Audit Report No. STD-15120-3-0001/July 2003




                              PUBLIC
                              RELEASE



   Office of Audits, Science & Technology Audits Division

U.S. Department of Commerce                                                                                  Report STD-15120-3-0001 

Office of Inspector General                                                                                                July 2003



                                                 TABLE OF CONTENTS


                                                                                                                     Page

EXECUTIVE SUMMARY ........................................................................................................ i


INTRODUCTION ...................................................................................................................... 1 


OBJECTIVES, SCOPE, AND METHODOLOGY.................................................................... 2 


FINDINGS AND RECOMMENDATIONS............................................................................... 4 


I.	       NOAA Should Establish Effective Controls to Better Manage, Stabilize, 

          And Document the Critical Survey Backlog .................................................................. 4 

          A. 	  NOAA does not have effective management 

                controls over the critical survey backlog ............................................................ 4 

          B.	   Recommendations............................................................................................... 5               

          C.    N
                	 OAA Response................................................................................................. 6              

          D.    	OIG Comments ................................................................................................... 6            


II.	      NOAA Should Ensure That Survey Work is Consistent With 

          Its Justification to Congress ............................................................................................ 7 

          A. 	     NOAA is not always using appropriated “Address Survey Backlog” funds

                   as justified to Congress ....................................................................................... 7 

          B.	      Recommendation ................................................................................................ 8           

          C. 	     Funds to be put to better use ............................................................................... 8 

          D.        N
                    	 OAA Response................................................................................................. 8          

          E.       	OIG Comments ................................................................................................... 9         


III.	     NOAA Needs to Track the Full Costs of Its Hydrographic Surveys Program ............. 10 

          A. 	 The Hydrographic Surveys Division does not track and report 

               the full cost of conducting surveys ................................................................... 10 

          B.	  Recommendation .............................................................................................. 11                

          C.   N
               	 OAA Response............................................................................................... 11                

          D.   	OIG Comments ................................................................................................. 12              


IV.	      NOAA Should Enforce Due Dates for Delivery of Contractors’ 

          Completed Surveys ....................................................................................................... 13 

          A. 	  Survey contractors are not complying with task order delivery dates .............. 13 

          B.	   Recommendation .............................................................................................. 14               

          C.    N
                	 OAA Response............................................................................................... 14               


V. 	      NOAA Should Implement a Detailed Work Plan for Eliminating the 

          Critical Backlog ............................................................................................................ 15 

          A. 	    NOAA has not implemented a detailed work plan

                  that includes cost and schedule goals................................................................ 15 

          B.	     Recommendation .............................................................................................. 16             

U.S. Department of Commerce                                                                          Report STD-15120-3-0001 

Office of Inspector General                                                                                        July 2003



                                                  TABLE OF CONTENTS

                                                                                                                              Page
         C.       NOAA Response............................................................................................... 16     

         D.       OIG Comments ................................................................................................. 16   


Appendix A 	 Percent of Contractor-Surveyed Square Nautical Miles 

             Outside the Critical Backlog (FYs 2001 and 2002).......................................... 18 


Appendix B	 Survey Task Orders For Which Obligations Were Charged to “Address 

            Survey Backlog” Line Item (8K6JKR) For Work Outside the Critical

            Survey Backlog (FYs 2001 and 2002).............................................................. 19 


Appendix C	 Supplemental Information Relating to Funds To Be Put To Better Use .......... 20 


Appendix D 	 Summary of NOAA’s Response to Funds To Be Put To Better Use 

             And Related OIG Comments ............................................................................ 21 


Appendix E 	 NOAA’s Response to Draft Report
U.S. Department of Commerce                                                               Report STD-15120-3-0001 

Office of Inspector General                                                                             July 2003


                                          EXECUTIVE SUMMARY 


NOAA has a statutory mandate to provide nautical charts and related information for the safe
navigation of marine commerce and basic hydrographic data for engineering and scientific
purposes, as well as for other commercial and industrial needs. To fulfill this mandate, NOAA
conducts hydrographic surveys of the U.S. Exclusive Economic Zone—an area of more than 3
million square nautical miles that extends 200 nautical miles offshore from the nation’s coastline.
These surveys collect data via state-of-the-art technologies, in order to create nautical charts.
Hydrographic survey data supports a variety of maritime functions including port and harbor
maintenance (dredging), coastal engineering (beach erosion and replenishment studies), coastal
zone management, and offshore resource development. Reliable nautical charts are fundamental
to safe and efficient marine navigation.

In 1994, NOAA identified approximately 43,000 square nautical miles, primarily coastal shipping
lanes and approaches to major U.S. ports, as critical areas1 in need of hydrographic surveys (i.e.,
“the critical survey backlog”). NOAA has committed to completing these surveys by FY 2017.

In FY 1998, Congress created a separate budget line item entitled “Address Survey Backlog” and
appropriated additional funds to NOAA to complete this work. In addition, Congress has
specified that NOAA use private sector contractors to augment the data acquisition activities of its
hydrographic vessels, and appropriated a total of $89.7 million to NOAA for FYs 1998 through
2002 to fund such contracting.

We conducted an audit of NOAA’s critical survey backlog program to (1) identify and validate
NOAA’s progress in reducing the critical survey backlog; (2) identify and assess NOAA’s goals
and plans for eventually eliminating the backlog; and (3) evaluate the effectiveness of NOAA’s
management controls over reducing the backlog. Unfortunately, due to weaknesses in these
controls, as discussed below, we were unable to accurately assess NOAA’s progress in reducing
the critical survey backlog.

Our findings and recommendations are summarized as follows:

NOAA should establish effective controls to better manage, stabilize, and document the
critical survey backlog. NOAA cannot support with original nautical charts the specific areas
that comprised the critical backlog baseline established in 1994, has since modified the baseline,
and―despite an effort in 2000 to stabilize it―continues to make undocumented changes. NOAA
officials acknowledged that they do not have written policies and procedures for ensuring
accountability over the composition of the critical survey backlog. However, without effective
controls, NOAA cannot provide assurance that it is making appropriate progress toward reducing
the backlog. (see page 4).

1
  Areas deemed critical are waterways that have high volumes of commercial traffic (e.g., cargo, fishing, and cruise
vessels and ferries), extensive petroleum or hazardous material transport, and transiting vessels with low under-keel
clearance over the seafloor—or that prompt compelling requests for surveys from users.




                                                      i
U.S. Department of Commerce                                                                Report STD-15120-3-0001 

Office of Inspector General                                                                              July 2003


NOAA should ensure that survey work is consistent with its justification to Congress.
During FYs 2001 and 2002, NOAA obligated $6.5 million of its “Address Survey Backlog” funds
for surveys of “non-backlog” locations. NOAA thus runs the risk of ultimately requiring larger
appropriations under this line item to achieve the stated goals (see page 7).

NOAA needs to track the full costs of its hydrographic surveys program. The Hydrographic
Surveys Division does not track and periodically report to NOAA managers the full cost of its
hydrographic surveys program, including its critical and noncritical2 components, as provided by
federal internal control and cost accounting standards and endorsed by NOAA.3 According to
division officials, NOAA lacks policies and procedures that support these federal mandates.
Without knowing the full costs of the Hydrographic Surveys Division’s survey activities, NOAA
cannot provide reasonable assurance that it is making optimal use of public resources
appropriated for conducting surveys or that appropriations are sufficient for accomplishing their
intended purpose (see page 10).

NOAA should enforce due dates for delivery of contractors’ completed surveys. NOAA
needs to strengthen its internal controls over contractor performance by enforcing due dates for
delivery of completed surveys and other work products (“deliverables”), and establishing interim
milestones against which to measure contractors’ progress. Despite contract requirements for
timeliness, survey contractors have often been submitting their final deliverables late. A NOAA
official explained that in the interest of obtaining the highest quality data, deliverables are often
returned to contractors, sometimes several times, for improvement. While we recognize the
importance of high quality data, NOAA must, nevertheless, better manage task order due dates in
order to assure stakeholders that it is doing all it can to expedite the reduction of the critical
backlog (see page 13).

NOAA should implement a detailed work plan for eliminating the critical backlog. NOAA
has not implemented a detailed and documented work plan that specifies cost and schedule goals
for eliminating the critical survey backlog. NOAA officials told us that cost estimates would
require multiple caveats that allow for variables beyond their control. However, federal
legislation and guidance stress the need to integrate program planning and goals in agency
programs. Without a detailed, documented plan, NOAA risks prolonging the process of
eliminating the backlog (see page 15).

At the conclusion of our review, we discussed our findings with NOAA officials, who expressed
general agreement with the intent of our recommendations. On pages 5, 8, 11, 14, and 16 we
offer recommendations to the Under Secretary for Oceans and Atmosphere to address the
concerns raised in this report.



2
  Use of the term “noncritical” in this report describes those square nautical miles classified by NOAA in its National

Survey Plan as “navigationally significant” but not part of the “critical survey backlog.” 

3
  NOAA Program Review, May 2002. 





                                                     ii
U.S. Department of Commerce                                             Report STD-15120-3-0001 

Office of Inspector General                                                           July 2003


Funds to be put to better use

Implementation of the report’s recommendation to develop written policies and procedures that
require NOAA to use “Address Survey Backlog” funds for the critical survey backlog will result
in $6.5 million of funds to be put to better use over a two year period. These policies and
procedures will then enable NOAA to use such funds in a manner that is consistent with its
justification to Congress in seeking funds for this program (see page 8).

In response to the draft report, NOAA stated that management controls should be strengthened to
eliminate the critical survey backlog. NOAA concurred with six and was nonresponsive to one of
the report’s eight recommendations. NOAA did not concur with our recommendation to
implement a detailed and documented work plan that includes cost and schedule goals for
expediting the reduction of the critical survey backlog. NOAA believes that such a plan is
inconsistent with the changes in assumptions and variables associated with its program and said
that it will continue to develop general work plans. However, we continue to believe that NOAA
should implement a detailed and documented work plan that includes cost and schedule goals and
thereby expedites reduction of the critical survey backlog. In addition, of the six
recommendations with which NOAA concurred, its replies for three were not fully responsive.
We have requested that NOAA include in its audit action plan the steps it will take to fully
implement these recommendations. NOAA agreed in principle with our funds to be put to better
use, but differed in the amount of such funds. Also, NOAA suggested some changes to the body
of the report. We have taken these comments into consideration and have made changes as
appropriate.

NOAA’s response to the findings and our related comments are highlighted in the body of the
report. Appendix E contains NOAA’s complete reply to the findings.




                                          iii
U.S. Department of Commerce                                                                Report STD-15120-3-0001 

Office of Inspector General                                                                              July 2003


                                                                INTRODUCTION 


NOAA has a statutory mandate to provide nautical charts and related information for the safe
navigation of marine commerce and basic hydrographic data for engineering and scientific
purposes, as well as for commercial and industrial needs. To fulfill this mandate, NOAA
conducts hydrographic surveys of the U.S. Exclusive Economic Zone—an area of more than 3
million square nautical miles that extends 200 nautical miles offshore from the nation’s coastline.
                                                               These surveys collect data via
                                                               state-of-the-art technologies (see
                                                               diagram) in order to create nautical
                                                               charts. Hydrographic survey data
                                                               supports a variety of maritime
                                                               functions including port and
                                                               harbor maintenance (dredging),
                                                               coastal engineering (beach erosion
                                                               and replenishment studies), coastal
                                                               zone management, and offshore
                                                               resource development. Reliable
                                                               nautical charts are fundamental to
                                                               safe and efficient marine
                                                               navigation.4

    Hull mounted multi-beam sonar (left). Towed side scan sonar (right).
                                                                 In 1994, NOAA identified
    Source: http://chartmaker.ncd.noaa.gov
                                                                 approximately 43,000 square
nautical miles, primarily coastal shipping lanes and approaches to major U.S. ports, as critical
areas5 in need of hydrographic surveys (i.e., “the critical survey backlog”). NOAA has
committed to completing these surveys and thereby eliminating the backlog by FY 2017.

In 2000, NOAA issued its National Survey Plan to address current trends in maritime navigation.
The plan identifies more than 500,000 square nautical miles of the Exclusive Economic Zone as
“navigationally significant” and prioritizes their need for hydrographic surveys. The highest
priority was given to the critical survey backlog.

In FY 1998, Congress created a separate budget line item entitled “Address Survey Backlog” and
appropriated additional funds to NOAA to complete this work. In addition, Congress has

4
  The Office of Inspector General recently issued an audit report--Improvements Needed in the Reporting of
Performance Measures Related to Promoting Safe Navigation and Sustaining Healthy Coasts
(FSD-14998-3-0001)--that addressed issues and made recommendations regarding NOAA’s critical survey backlog.

That audit was limited to a review of NOAA’s performance measures related to its performance goals of (1) 

promoting safe navigation and (2) sustaining healthy coasts.

5
  Areas deemed critical are waterways that have high volumes of commercial traffic (e.g., cargo, fishing, and cruise

vessels and ferries), extensive petroleum or hazardous material transport, and transiting vessels with low under-keel 

clearance over the seafloor—or that prompt compelling requests for surveys from users.





                                                                           1                                 

U.S. Department of Commerce                                                Report STD-15120-3-0001 

Office of Inspector General                                                              July 2003


specified that NOAA use private sector contractors to augment the data acquisition activities of
its hydrographic vessels, and appropriated a total of $89.7 million to NOAA for FYs 1998
through 2002 for such contracting.

NOAA’s Hydrographic Surveys Division, a component of the National Ocean Service’s Office
of Coast Survey, manages hydrographic surveys. The Hydrographic Surveys Division’s efforts
are supported by partnering with NOAA’s Marine and Aviation Operations, which provides field
personnel and vessel support for in-house surveys, and with private contractors.

                      OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of this audit were to (1) identify and validate NOAA’s progress in reducing the
critical survey backlog; (2) identify and assess NOAA’s goals and plans for eventually
eliminating the backlog; and (3) evaluate the effectiveness of NOAA’s management controls
over reducing the backlog. Unfortunately, due to weaknesses in these controls, we were unable
to accurately assess NOAA’s progress in reducing the critical survey backlog. These weaknesses
are discussed throughout the body of this report. We did not assess the reliability of computer-
generated data because such data was not relevant to our review.

We used the following methodology to conduct our audit:

      • 	 Review of federal guidance and legislation. We examined relevant federal laws,
          regulations, and guidelines, including the Government Performance and Results Act of
          1993; Hydrographic Services Improvement Act of 1998; 33 USC 883a (Surveys and
          other activities); the Brooks Act: Federal Government Selection of Architects and
          Engineers; the Federal Acquisition Regulation; Office of Management and Budget
          Circular A-123 (Revised), Management Accountability and Control; and the General
          Accounting Office’s (GAO’s) Standards for Internal Control in the Federal
          Government.
      • 	 Examination of relevant documents. We studied a variety of materials, including
          congressional committee reports and testimony; NOAA’s Strategic Plan: A Vision for
          2005; hydrographic survey contracts, task orders, and related procurement documents;
          Office of Coast Survey’s National Survey Plan and FYs 2001 and 2002 spending
          plans; a management control review entitled Contracting for Hydrographic Surveying
          and Related Services, produced by the Hydrographic Surveys Division; NOAA’s
          Program Review; and a report from Mitretek entitled Hydrographic Survey Data
          Collection/Analysis, Conclusions, and Recommendations.
      • 	 Interviews. We spoke with officials and staff in NOAA’s Acquisitions and Grants
          Office, Office of Coast Survey, and Hydrographic Surveys Division. We also
          interviewed an official of a private management association that represents the
          interests of survey contractors.
      • 	 On-board observations. We accompanied the crew of the NOAA vessel Bay
          Hydrographer on a mission, to observe and understand the operation of a hydrographic
          survey vessel.




                                            2                                             

U.S. Department of Commerce                                            Report STD-15120-3-0001 

Office of Inspector General                                                          July 2003




Our review was conducted in accordance with generally accepted government auditing standards
and was performed under the authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, dated May 22, 1980, as amended. We conducted our
fieldwork from April to December 2002 at NOAA headquarters in Silver Spring, Maryland.




                                          3                                           

U.S. Department of Commerce                                                  Report STD-15120-3-0001 

Office of Inspector General                                                                July 2003


                          FINDINGS AND RECOMMENDATIONS


I. 	   NOAA Should Establish Effective Controls to Better Manage, Stabilize,
       And Document the Critical Survey Backlog

NOAA needs to establish effective controls to manage, stabilize and document the “critical
survey backlog.” We found that NOAA cannot support with original nautical charts the specific
areas comprising the original baseline for the 1994 critical backlog. NOAA subsequently
changed the composition of the baseline and, despite an effort in 2000 to stabilize it, continues to
make changes. NOAA officials told us that the bureau lacks written policies and procedures that
ensure accountability over the composition of the critical survey backlog. Without such controls,
NOAA cannot provide assurance that it is making appropriate progress toward reducing the
backlog.

A. 	   NOAA does not have effective management
       controls over the critical survey backlog.

In 1994, NOAA identified a baseline of approximately 43,000 square nautical miles as critical
areas in need of hydrographic surveys, reportedly documenting the specific location of each area
on a nautical chart and hand-annotating the chart with relevant survey data. However, NOAA
officials told us that the originally hand-annotated charts are no longer available, that they were
perhaps lost during a move from Rockville to Silver Spring. NOAA used these charts to
establish and support the original 1994 baseline.

NOAA officials acknowledge that between 1994 and 2000 they modified the original baseline—
substituting newly identified critical areas for less critical ones and removing other areas that
they determined were less critical. However, NOAA did not track these changes or justify its
decision to remove areas no longer considered to be part of the critical survey backlog.

In 2000, NOAA formalized the modifications, publishing the revised backlog in the Office of
Coast Survey’s National Survey Plan (November 2000). The new backlog, which differs
substantially from the original (see Figure 1 on the next page), (a) reflects areas surveyed since
1994, (b) identifies areas subsequently determined to be most in need of survey, and (c) attempts
to stabilize the boundaries of the backlog and thus facilitate control over it. While this attempt to
document and stabilize the backlog was needed, the National Survey Plan does not disclose to
Congress or other decisionmakers that the composition of the original (1994) baseline has been
changed. Decision makers should have full and accurate information about such changes in
order to evaluate the government’s effectiveness in reducing the critical survey backlog.

In addition, the plan does not stabilize the boundaries of the backlog. Although one NOAA
official told us that with publication of the survey plan no additional changes to the backlog were
to occur, another official confirmed that changes are still being made.




                                              4                                              

U.S. Department of Commerce                                                                                              Report STD-15120-3-0001 

Office of Inspector General                                                                                                            July 2003


We attempted to identify and verify
the areas that comprised the original                                Figure 1. Reported Critical Survey Backlog
backlog, as well as NOAA’s                                                      (Total = 43,000 SNM)
progress toward reducing it.




                                                                                                                                        21,745
However, we were unable to do
either because NOAA cannot locate




                                                                                                                                                 19,048
                                                                 20000
the charts and documents that
detailed the original 43,000 square




                                                                                           14,700
nautical miles. NOAA officials




                                         SQUARE NAUTICAL MILES
acknowledged that they have not




                                                                                                    12,842
                                                                 15000
accurately tracked the critical survey
backlog and that better controls are
needed.




                                                                                   8,884
                                                                 10000

GAO’s Standards for Internal



                                                                           4,825
Controls in the Federal Government
states that, “Internal control and all        5000
transactions and other significant




                                                                                                                         1,235
                                                                                                                         1,450
events need to be clearly




                                                                                                             323
                                                                                                                   270
documented, and the documentation                0




                                                                                                                                  65
                                                                                                                                 66
should be readily available for                      East
                                                            Gulf of
examination.” NOAA should                            Coast
                                                            Mexico
                                                                    Great
                                                                           West
                                                                                   Hawaii
                                                                    Lakes                  Alaska
implement policies and procedures                                          Coast

that, at a minimum, (1) establish and                               REGIONS
maintain a stable, supportable
baseline for the critical survey                       1994 Baseline         2000 Plan
backlog, and ensure accountability
over it; and (2) allow only those
modifications that reflect completed surveys or the delisting of once-critical areas that have been
properly justified and approved as no longer requiring critical status.

B. Recommendations

The Under Secretary for Oceans and Atmosphere should require NOAA to implement written
policies and procedures that, at a minimum, do the following:

1. 	   Fully and accurately disclose the nature, extent of, and rationale for all modifications
       made to the original 1994 critical survey backlog, in the Office of Coast Survey’s
       National Survey Plan and in all future budget requests and performance reports.

2. 	   Establish and maintain a stable baseline for the critical survey backlog, supported by
       nautical charts that delineate specific survey locations.




                                                                 5                                                                       

U.S. Department of Commerce                                                 Report STD-15120-3-0001 

Office of Inspector General                                                               July 2003


3. 	   Ensure accountability over the composition of the baseline to

       a. 	    allow only those modifications that reflect reductions based on completed surveys
               or properly justified and approved removal of areas no longer deemed critical; and

       b. 	    require preservation and protection of supporting nautical charts and related
               documents that identify the specific survey details and locations for each critical
               area.

C.     	NOAA Response

NOAA concurs with recommendations #1, 2, and 3b, but did not respond to recommendation
#3a. Regarding recommendation #1, NOAA states that the information needed to document all
the changes made to the 1994 baseline is not available. As an alternative, it is in the process of
developing the 2003 version of the National Survey Plan and will document the changes to the
2000 baseline and institute a system for documenting all future changes to the 2003 baseline.

Concerning recommendations #2 and #3b, NOAA states that a new stable baseline for the critical
survey backlog is currently being developed in a state-of-the-art Geographic Information System
in much more detail than previous versions. The delineation of specific survey locations will be
maintained on modern digital nautical charts, which will be backed up to ensure data
redundancy.

D.     	OIG Comments

NOAA’s reply is partially responsive to recommendation #1. NOAA states that it does not have
the information needed to document all the changes it made to the 1994 baseline. NOAA should
still fully disclose in the National Survey Plan and in all future budget requests and performance
reports the fact that modifications were made and, based on available information, summarize
the nature, extent of, and rationale for them. In its audit action plan, NOAA should specify the
steps it will take to make such disclosures.

NOAA’s reply is responsive to our recommendations #2 and #3b.

With respect to recommendation #3a, NOAA should specify in its audit action plan the steps it
will take to ensure accountability by allowing only the indicated modifications to the critical
survey backlog.




                                             6                                              

U.S. Department of Commerce                                                            Report STD-15120-3-0001 

Office of Inspector General                                                                          July 2003


II. 	   NOAA Should Ensure That Survey Work is Consistent With
        Its Justification to Congress

NOAA must ensure that “Address Survey Backlog” funds are used in a manner that is consistent
with the justification that NOAA submitted to Congress in seeking funds for this program.
During FYs 2001 and 2002, NOAA obligated $6.5 million of this line item for contractor
surveys of locations not identified as “critical survey backlog” in its National Survey Plan issued
in November 2000. Without appropriate controls, NOAA may ultimately require larger
appropriations under this line item to achieve the stated goals.

A.	     NOAA is not always using appropriated “Address Survey Backlog” funds
        as justified to Congress.

When Congress created the separate budget line item—“Address Survey Backlog”—it made
clear that the funding was to be used to hire private sector surveyors to help reduce the critical
survey backlog.6 In an internal report7, NOAA indicates that appropriated funds in the “Address
Survey Backlog” line item should only be used for the critical survey backlog. However, we
found that funds from this budget line item are used to pay hydrographic surveyors for work
NOAA considers important but is not always listed as part of the critical survey backlog in the
plan.

Our review of NOAA records for the 12 task orders issued to hydrographic surveyors during FYs
2001 and 20028 showed that 21 percent (384 square nautical miles) of some 1,795 square
nautical miles surveyed were outside the revised critical backlog identified in the National
Survey Plan (see Appendix A), yet NOAA charged all miles to its official accounting
classification code (8K6JKR) that tracks obligations for the “Address Survey Backlog” line item.
Appendix A lists the task orders and the number of square nautical miles that contractors
surveyed inside and outside the critical backlog that was identified in the National Survey Plan.
We found that for these 12 task orders, charges for work not identified as critical survey backlog
for the 2-year period equaled $6.5 million, or 24 percent of $27.3 million obligated (see
Appendix B).

NOAA officials said that the agency has no written policies and procedures restricting the use of
funds from this line item to areas in the critical survey backlog. They believe that these funds
can be used for both critical and noncritical9 surveys.


6
  House Report 105-636, Committee on Appropriations, FY 1999, 7/20/98 (pp. 81, 86); Answers to Post-Hearing

Questions Submitted by Members of the Subcommittee on Energy and Environment, FY 2000, 2/24/99 (pp. 1126, 

1127); and House Report 107-139, Committee on Appropriations, FY 2002, 7/13/01 (pp. 71, 79, 80).

7
  Contracting for Hydrographic Surveying and Related Services, National Ocean Service, 9/00 (pp. 1,25,26).

8
  Based on task orders awarded as of 7/31/02.

9
  Use of the term “noncritical” in this report describes those square nautical miles classified by NOAA in its 

National Survey Plan as “navigationally significant” but not part of the “critical survey backlog.”





                                                    7                                                    

U.S. Department of Commerce                                                   Report STD-15120-3-0001 

Office of Inspector General                                                                 July 2003


By using “Address Survey Backlog” funds to pay for surveys outside the critical backlog area,
NOAA increases the total amount of funding that Congress must appropriate to accelerate
reduction of the backlog and impairs efforts to link resources with performance. Therefore, it is
essential that NOAA implement written policies and procedures to ensure that the use of
“Address Survey Backlog” funding is consistent with the use that NOAA indicated to the
Congress. It is important to note that other areas outside the “critical backlog,” even areas
adjacent to the backlog, need to be surveyed, but NOAA has separate funding appropriated for
this work.

B.     Recommendation

The Under Secretary for Oceans and Atmosphere should ensure that NOAA develops written
policies and procedures that require it to use “Address Survey Backlog” funds for their intended
purpose. This could be accomplished by accounting for and allocating the critical and
noncritical work between the two separate appropriations. This would strengthen the link
between NOAA resources and performance.

C.     Funds to be put to better use

Based on our analysis of NOAA’s obligations charged to the “Address Survey Backlog” line
item (8K6JKR) during FY 2001 and FY 2002 (through July 2002), implementing our
recommendation will result in average annual funds to be put to better use of $3.25 million or
$6.5 million (see Appendix B) over the next two fiscal years. NOAA’s implementation of our
recommendation will result in Congress knowing that “Address Survey Backlog” funds
designated for reducing the critical survey backlog are being used to reduce the backlog.
Additionally, we estimate that NOAA’s remaining 15-year commitment (FY 2003 through FY
2017) to eliminate the critical survey backlog could be reduced by 3 years if the funds were used
as intended to hire private sector surveyors to specifically reduce the critical survey backlog (see
Appendix C).

D.     NOAA Response

NOAA concurs with the recommendation but states that it believes it has expended “Address
Survey Backlog” funds for their intended purpose of outsourcing. It explains that the history of
the “Address Survey Backlog” budget line item indicates that the primary and overriding intent
of Congress was to create a line item dedicated exclusively to supporting outsourcing. NOAA
also believes that Congress intended for the bureau to target its outsourcing efforts to survey
priority backlog requirements, especially areas designated as critical.

Despite NOAA’s belief that “Address Survey Backlog” funds were used for their intended
purpose, it concurs that such funds can be put to better use. However, NOAA disagrees with our
calculation of $6.5 million over the next two fiscal years, asserting that it is slightly more than $1
million. A summary of NOAA’s rationale for rejecting the OIG’s calculations is included in
Appendix D.




                                              8                                               

U.S. Department of Commerce                                                 Report STD-15120-3-0001 

Office of Inspector General                                                               July 2003




E.     OIG Comments

Although NOAA states that it concurs with our recommendation, its reply is only partially
responsive. The intent of our recommendation is that NOAA should develop written policies
and procedures that require it to restrict the use of “Address Survey Backlog” funds to
outsourcing for surveys in the critical survey backlog areas. As we note in our report, NOAA
justified to Congress, when seeking funds for this program, that the “Address Survey Backlog”
budget line item was to be used to hire private sector surveyors to help reduce the critical survey
backlog. NOAA has separate funding appropriated for its priority work other than the critical
survey backlog. We, therefore, reaffirm our recommendation and request that NOAA include in
its audit action plan the steps it will take to fully implement our recommendation.

Regarding funds to be put to better use, NOAA did not provide details to support its calculation
of slightly more than $1 million. Also, we do not agree with NOAA’s rationale for rejecting the
OIG calculations. We, therefore, stand by our calculation of $6.5 million of funds to be put to
better use over the next two years. We include the details of our position in Appendix D.




                                             9                                              

U.S. Department of Commerce                                                 Report STD-15120-3-0001 

Office of Inspector General                                                               July 2003


III. 	   NOAA Needs to Track the Full Costs of Its Hydrographic Surveys Program

GAO’s Standards for Internal Control in the Federal Government10 require agencies to (1) track
and record program costs and (2) disseminate this data within a time frame and in a format that
enables pertinent agency personnel to carry out their program-related responsibilities. The
Federal Accounting Standards Advisory Board’s (FASAB) Statement of Federal Financial
Accounting Standards No. 4 (July 1995) states that federal entities should report the full costs of
resources used to produce their outputs, regardless of funding sources.

Despite the importance of hydrographic surveys to achieving NOAA’s performance goal of
promoting safe navigation, the Hydrographic Surveys Division does not track the full cost of its
hydrographic surveys program, consisting of both critical and noncritical surveys, and hence
cannot (nor does it attempt to) periodically report those costs to NOAA managers. Without
knowing the full costs of the Hydrographic Surveys Division’s survey activities, NOAA cannot
provide reasonable assurance that it is making optimal use of public resources appropriated for
conducting surveys or that appropriations are sufficient for accomplishing their intended
purpose.

A.	      The Hydrographic Surveys Division does not track and report
         the full cost of conducting surveys.

According to Hydrographic Surveys Division officials, NOAA has no policies or procedures that
support federal standards for tracking and reporting full costs for conducting its hydrographic
surveys program, including its critical and noncritical components, although the bureau has at
least twice endorsed the need to track such costs:

            (1) The NOAA Program Review11 supports the Budget and Performance Integration
                Initiative of the President’s Management Agenda, which calls for integrating
                performance with the full cost of government programs. The review
                recommended, among other things, that NOAA use activity-based costing and
                other formal tools and measures for accountability and performance-based
                management. Activity-based costing measures the actual cost and performance of
                process-related activities.

            (2) NOAA’s Commerce Administrative Management System’s Program Management
                Plan12 supports FASAB’s Statement No. 4 and stipulates that agency outputs and
                outcomes be evaluated on the basis of their accumulated and reported costs,
                consistent with cost accounting standards.


10
   Reissued in November 1999.
11
   NOAA Program Review, May 2002 (p. 20).
12
   Issued April 27, 1998 (p. 2).




                                            10                                              

U.S. Department of Commerce                                                            Report STD-15120-3-0001 

Office of Inspector General                                                                          July 2003


The Hydrographic Surveys Division’s accounts of survey costs are incomplete and based on
informal information. For example, the division distributes an internal “baseline” cost document
annually to its staff and to support personnel in the Office of Coast Survey and the National
Ocean Service, the purpose of which is to track costs and accomplishments. However, the
information included in the document is unofficial and excludes the division’s overhead and in
house survey costs. Similarly, the Office of Coast Survey issues periodic spending plans that
contain official NOAA contract costs for the “Address Survey Backlog” line item, but the plans
do not include official in-house survey costs.

NOAA agreed that there is a need to track and periodically report the full costs of conducting
surveys. Knowing full costs will enable the Hydrographic Surveys Division to be in a position to
better manage the effort, including the ability to:

      •    better control current expenditures and budget execution;
      •    develop relevant and consistent budget requests;
      •    improve program efficiency, effectiveness, and results;
      •    recover costs on any future reimbursable work it may perform;
      •    determine resource costs to support cost-benefit considerations13; and
      •    improve decision making related to competitive sourcing.

Without full cost information, NOAA cannot provide reasonable assurance to stakeholders that it
is using resources efficiently to conduct hydrographic surveys, nor can it predict the level of
funding required to meet this challenge.

B.        Recommendation

The Under Secretary for Oceans and Atmosphere should take the necessary actions to strengthen
NOAA’s management of its hydrographic surveys program by implementing policies and
procedures that require the Hydrographic Surveys Division to track its full cost, including the
critical and noncritical components, and periodically report this information to the appropriate
NOAA officials.

C.        NOAA Response

NOAA concurs with the recommendation regarding funding under the control of the Office of
Coast Survey. However, NOAA states that the Office of Coast Survey cannot mandate detailed
cost accounting for in-house assets associated with ship operations controlled by the NOAA


13
   Refer to OIG’s report entitled Improvements Needed in the Reporting of Performance Measures Related to
Promoting Safe Navigation and Sustaining Healthy Coasts (FSD-14998-3-0001, 2/03, p. 9). The OIG points out
that NOAA should report annual expenditures, along with reductions of the critical survey backlog, in the U.S.
Department of Commerce FY 2001 Annual Program Performance Report/FY 2003 Annual Performance Plan.




                                                   11                                                    

U.S. Department of Commerce                                                Report STD-15120-3-0001 

Office of Inspector General                                                              July 2003


Marine and Aviation Operations. The Office of Coast Survey will continue to track the full costs
of the Hydrographic Surveys Division.

D.     OIG Comments

NOAA’s reply is partially responsive to our recommendation. While we are pleased that the
Hydrographic Surveys Division, which manages the program, will continue to track the costs
under its control, the intent of our recommendation was that the Hydrographic Surveys Division
track and report the full costs of the hydrographic surveys program. One possible solution is for
NOAA to establish a written procedure that requires appropriate organizational components,
such as the NOAA Marine and Aviation Operations and Finance Office, to routinely provide cost
information to the Hydrographic Surveys Division for compilation and report preparation and
distribution. NOAA should specify in its audit action plan the steps it will take to implement the
intent of our recommendation.




                                            12                                            

U.S. Department of Commerce                                                 Report STD-15120-3-0001 

Office of Inspector General                                                               July 2003


IV. 	   NOAA Should Enforce Due Dates For Delivery of Contractors’
        Completed Surveys

NOAA needs to strengthen its internal controls over contractor surveys by enforcing due dates
for delivery of completed surveys and other work products (“deliverables”), as stipulated in the
task orders, and establishing interim milestones against which to measure contractors’ progress.
Despite contract requirements for timeliness, private sector surveyors have been submitting their
deliverables late. A NOAA official explained that in the interest of obtaining the highest quality
data, deliverables are often returned to contractors—sometimes several times—for improvement.
While we recognize the importance of high quality data, NOAA must, nevertheless, better
manage task order due dates for final deliverables in order to assure stakeholders that it is doing
all it can to expedite reduction of the critical backlog.

A. 	    Survey contractors are not complying with task order delivery dates.

Private sector companies provide hydrographic surveying services under contract task orders
issued by a NOAA contracting officer. These agreements specify the survey area, amount of
funds obligated, types of and due dates for deliverables (which include preliminary smooth
sheets and digital data files). The contracts also stipulate government remedies, including
termination, for a contractor’s failure to furnish final deliverables on time.

We reviewed contractors’ compliance with the due dates for final deliverables—reviewing the
submission dates for 24 completed task orders issued to five different contractors during FYs
1999 through 2002. For 21 (88 percent) task orders, contractors submitted final deliverables
late—with delays ranging from 4 days to more than 6 months. Delays of 3 to 6 months or
more—which occurred in 8 cases (38 percent)—are particularly significant, given that the
planned performance periods for the 24 task orders averaged only about 5 months. Also, we
examined 13 of these task orders and found that none included interim due dates, or milestones,
for final deliverables.

A NOAA procurement official explained that in the interest of obtaining the highest quality data
possible and reducing verification time, the Hydrographic Surveys Division’s processing
branches returned the deliverables to contractors for improvement, typically cartographic edits.
According to NOAA, longer delays were sometimes due to a contractor’s inexperience with the
type of survey work specified in the task order.

One possible solution is for NOAA to incorporate interim due dates into contract task orders,
thereby more quickly identifying potential problems, allowing more time for corrective action,
and increasing the likelihood that contractors will submit acceptable final deliverables on time.
Better monitoring of task order due dates and the use of interim milestones should improve both
the quality and timeliness of final deliverables.




                                            13                                             

U.S. Department of Commerce                                                 Report STD-15120-3-0001 

Office of Inspector General                                                               July 2003


B.      Recommendation

To strengthen internal controls over contractor performance and expedite backlog reduction
while ensuring quality deliverables, the Under Secretary for Oceans and Atmosphere should take
the necessary actions to better monitor task order due dates for final deliverables, and include in
these contract documents formal interim due dates, or milestones.

C.     NOAA Response

The Office Coast Survey concurs with this recommendation.




                                            14                                             

U.S. Department of Commerce                                                Report STD-15120-3-0001 

Office of Inspector General                                                              July 2003


V.	       NOAA Should Implement a Detailed Work Plan for Eliminating the
          Critical Backlog

Despite federal legislation and guidance stressing the need to integrate program planning and
goals—and NOAA’s own endorsement of this approach—NOAA’s critical survey backlog
program is not based on such integration: the bureau has not implemented a detailed and
documented work plan that provides cost and schedule goals for eliminating the backlog.
NOAA officials told us that estimating the cost of completing the critical survey backlog would
require multiple caveats that allow for variables beyond the bureau’s control. However, without
a detailed, documented plan, NOAA risks prolonging the process of eliminating the backlog.

A.	       NOAA has not implemented a detailed work plan
          that includes cost and schedule goals.

The Government Performance and Results Act of 1993 (P.L. 103-62) requires agencies to
develop strategic plans and set performance goals. OMB Circular A-123 (Revised),
Management Accountability and Control, states that these plans and goals should be integrated
into (1) the budget process and (2) the operational management of agencies and programs.
GAO’s Standards for Internal Control in the Federal Government14 states that effective internal
control, which includes proper planning and documentation, is a key factor in meeting agency
goals. NOAA’s May 2002 Program Review15 identifies business processes and best practices—
such as integrated planning, performance goals, and corrective action plans—for building and
sustaining effective management, and specifically mentions hydrographic surveys as an example
of a significant imbalance between resources and requirements, i.e., resources provided to do the
work and NOAA’s overall requirements to ensure safe navigation of all the coastal waterways.

NOAA, however, has not developed a detailed and documented work plan that includes cost and
schedule goals for expediting elimination of the critical survey backlog, and we could, therefore,
not adequately assess the bureau’s progress toward eliminating the backlog. NOAA officials
told us that, in lieu of such a plan, they follow the National Ocean Service’s Strategic Plan, the
Commerce Annual Program Performance Report/Plan, and budget initiatives. But neither these
documents nor its National Survey Plan contain cost and schedule goals and other relevant
information, such as staffing, contracting, training, vessels, and equipment needed to expedite
elimination of the critical backlog. Further, NOAA officials cautioned that any formal estimate
of the cost of completing backlog survey work would require multiple scenarios to accommodate
unknown variables, such as future ship, fuel, personnel, and contract costs; out-year weather
predictions; technology changes; and homeland security needs or other national priorities; and
would thus be almost meaningless. However, planning is, by nature, an evolving process that
must be based on reasonable assumptions that allow for adjustments in response to changing
conditions.


14
     Reissued in November 1999.

15
     NOAA Program Review, May 2002 (pp. 15, 20, 67).





                                                  15                                      

U.S. Department of Commerce                                                       Report STD-15120-3-0001 

Office of Inspector General                                                                     July 2003


Congress has emphasized the importance of timely reduction of the critical survey backlog. For
example, the Committee on Appropriations stated in its House report on NOAA’s FY 1999
budget,16 “The Committee continues to believe that a 30-year backlog in updated charts and
surveys for critical navigable waters is completely unacceptable and expects NOAA and the
Administration to make navigation safety a high priority in future budget requests.” Also, a
management consultant hired by NOAA stated: “The notion that a 20-year backlog of critically
needed surveying exists was both decried as taking too much time and ridiculed as intuitively not
reflecting of anything truly critical.”17 The consultant recommended that a more reasonable time
frame for addressing this work be established.

NOAA must take the appropriate steps to reduce the critical survey backlog in a timely manner.
NOAA’s current approach and implementation call into question the urgency and necessity of its
efforts to eliminate the critical survey backlog within a reasonable timeframe. A detailed work
plan with cost and schedule goals for eliminating the backlog under different scenarios (e.g., 5,
10, and 15 years) would provide such a timeframe and would help speed the survey process by
providing (1) direction to NOAA officials and staff responsible for eliminating the critical
backlog and (2) a basis for realistic budget requests to Congress. Without such a plan, it seems
unlikely that NOAA will achieve its objective in a timely manner.

B.     Recommendation

The Under Secretary for Oceans and Atmosphere should take the necessary actions to require
NOAA to implement a detailed and documented work plan that includes cost and schedule goals
and thereby expedites reduction of the critical survey backlog.

C.      NOAA Response

NOAA does not concur with the recommendation because it is inconsistent with the dynamic
nature of the critical hydrographic survey backlog work plans. NOAA continually makes
projections on the estimated time necessary to complete the critical backlog in a very general
way based on reasonable assumptions. However, those assumptions deal with numerous
variables. Changes in the assumptions and the numerous variables will immediately render any
detailed work plan obsolete. NOAA states that it will continue to develop general work plans
based on current appropriations and technology.

D.      OIG Comments

We reaffirm our recommendation. While we recognize the dynamic nature of NOAA’s plans to
eliminate the critical survey backlog, this characteristic does not negate the need to implement a
detailed and documented work plan that includes cost and schedule goals. Fundamental to

16
  House Report 105-636, July 20, 1998, p. 86.

17
  Hydrographic Survey Data Collection/Analysis, Conclusions, and Recommendations, Mitretek Systems (October   

1998, pp. 33, 34).





                                                16                                                 

U.S. Department of Commerce                                              Report STD-15120-3-0001 

Office of Inspector General                                                            July 2003


planning is the issue of accountability. Without documented plans that include specific cost and
schedule goals, NOAA cannot provide assurance that it will be accountable for time and
resources. As we noted in our report, Congress emphasized the importance of timely reduction
of the critical survey backlog. We believe that NOAA’s general work plans lack the objective
and quantifiable goals necessary for measuring whether the bureau has been accountable for time
and resources. Such goals are particularly suitable to plans for eliminating the critical survey
backlog because, unlike some research activities, NOAA’s output, completed nautical surveys, is
objective and quantifiable.




                                           17                                           

U.S. Department of Commerce                                                            Report STD-15120-3-0001 

Office of Inspector General                                                                          July 2003


                                               APPENDIX A 



                            Percent of Contractor-Surveyed Square Nautical Miles
                                         Outside the Critical Backlog
                                             FYs 2001 and 2002a

                     Number                            Number of Square Nautical Miles (snm)
                                                                    Surveyed
    (1)               (2)                (3)             (4)          (5)            (6)             (7)
                                                                    Inside        Outside      Percent Outside
  Task                                                             Critical       Critical       the Critical
 Order(s)        Contract No.          Project         Totalb      Backlogb       Backlogb         Backlog
                                                       (snm)        (snm)          (snm)          (Cols 6/4)

 FY 2001
     5        50-DGNC-0-90003         KR-P385             62           25             37            60
     4        50-DGNC-0-90017         KR-P182            850          623            227            27
     1        50-DGNC-1-90012         KR-K379            169          169             0              0
   4,6,7      50-DGNC-0-90015         KR-D307            197          197              0             0
     5        50-DGNC-9-90011         KR-L328             22            0             22            100
     2        50-DGNC-9-90012         KR-F336             54            0             54            100
                                                        1,354        1,014           340            25
 FY 2002a
     2          50-DGNC-1-90012       KR-K379          232            232             0               0
     9          50-DGNC-0-90015       KR-C303           80             66             14             18
     6          50-DGNC-0-90003       KR-O331           40             40              0              0
     8          50-DGNC-0-90017       KR-O309           89             59             30             34
 Totals                                                441            397            44              10
 Grand Totals                                         1,795          1,411           384            21%
 a
   As of July 31, 2002.
 b
   As identified in NOAA’s National Survey Plan issued in 2000.




                                                  18                                                   

U.S. Department of Commerce                                                              Report STD-15120-3-0001 

Office of Inspector General                                                                            July 2003


                                                APPENDIX B



                                            Survey Task Orders
                                                For Which
                 Obligations Were Charged to “Address Survey Backlog” Line Item (8K6JKR)
                               For Work Outside the Critical Survey Backlog
                                            FYs 2001 and 2002a

                        Number
     (1)                 (2)                     (3)               (4)              (5)                  (6)
                                                                               Percentage of          Amount
                                                                                  Square            Charged to
                                                                               Nautical Miles     “Address Survey
                                                                                 Outside             Backlog”
  Task                                                       Total Amount        Critical            Line Item
 Order(s)            Contract No.             Project         Obligated          Backlogb          (Col 4 X Col 5)

FY 2001
      5            50-DGNC-0-90003           KR-P385            $ 1,894,043         60%                   $1,136,426
      4            50-DGNC-0-90017           KR-P182              7,687,678           27                    2,075,673
      1            50-DGNC-1-90012           KR-K379              2,486,246            0                            0
    4,6,7          50-DGNC-0-90015           KR-D307              3,442,011            0                            0
      5            50-DGNC-9-90011           KR-L328                626,939          100                      626,939
      2            50-DGNC-9-90012           KR-F336              1,098,396          100                    1,098,396
Totals                                                          $17,235,313                               $4,937,434
FY 2002a
     2             50-DGNC-1-90012           KR-K379             $3,155,059            0                            0
     9             50-DGNC-0-90015           KR-C303              1,473,313           18                  $ 265,196
     6             50-DGNC-0-90003           KR-O331              1,630,163            0                            0
     8             50-DGNC-0-90017           KR-O309              3,806,176           34                    1,294,100
Totals                                                          $10,064,711                               $1,559,296
Grand Totals                                                    $27,300,024         24%c                 $6,496,730d
a
  As of July 31, 2002.
b
  Source: Appendix A, column 7.
c
  $6,496,730 divided by $27,300,024.
d
  $6,496,730 divided by 2 equals $3.25 million (rounded), the average annual funds to be put to better use.




                                                    19                                                     

U.S. Department of Commerce                                                               Report STD-15120-3-0001 

Office of Inspector General                                                                             July 2003


                                                  APPENDIX C 


                                   Supplemental Information Relating to

                                      Funds to Be Put to Better Use


The OIG estimates that NOAA’s remaining 15-year commitment to eliminate the critical survey
backlog can be reduced by 3 years from funds to be put to better use, as follows:

       1. Average annual appropriation from the line item “Address
          Survey Backlog” (8K6JKR)                                                                 $17,940,0001

       2. 	 Total funds to be put to better use over NOAA’s remaining
            15-year commitment (FY 2003 through FY 2017)                                           $48,750,0002

       3. 	 Number of years of annual appropriation for “Address
            Survey Backlog” eliminated by using these funds
            exclusively for the critical survey backlog (#2 divided by
            #1)                                                                         2.7 yrs. (3 yrs. rounded)




___________________________
1
    $89.7 million divided by five years (FY 1998 through FY 2002). See page 2 of this report.
2
    $3,250,000 average annual funds to be put to better use times 15 years.




                                                     20                                                  

U.S. Department of Commerce                                                   Report STD-15120-3-0001 

Office of Inspector General                                                                 July 2003


                                           APPENDIX D 


              Summary of NOAA’s Response to Funds To Be Put To Better Use

                            And Related OIG Comments


In its reply to our draft audit report, NOAA provided its position on the funds to be put to better
use that will result from implementing our recommendation relating to the use of “Address
Survey Backlog” funds (see report page 8). We have summarized below the details of NOAA’s
response, followed by our comments. A copy of NOAA’s complete response, including the
details relating to the funds to be put to better use, is included in Appendix E.

NOAA Response

Despite NOAA’s belief that “Address Survey Backlog” funds were used for their intended
purpose, it concurs that such funds can be put to better use. However, NOAA disagrees with our
calculation of $6.5 million over the next two fiscal years, asserting that it is slightly more than $1
million.

Specifically, NOAA asserts that the calculations that we used to determine the $6.5 million of
funds to be put to better use are based on numerous incorrect assumptions and insufficient
analysis, as follows:

1. Fixed Costs

   Each survey incurs fixed costs that are independent of the amount of work that is done. The
   OIG did not remove fixed costs from its calculations for the surveys that contractors
   conducted in the critical backlog areas when such surveys included work both inside and
   outside of such areas.

2. Water Depth

   The water depth of the area must be taken into consideration because fewer survey lines and
   less time are needed to cover the seafloor in deeper areas than in areas containing shoals that
   are closer to shore that may contain rocks and other hazards to navigation.

3. Survey Area Classification

   Included in the OIG’s calculations was one task order that addressed a new high priority area,
   one that was a critical survey area that had been omitted by error from the National Survey
   Plan, and two task orders that included “resurvey areas.”




                                             21                                               

U.S. Department of Commerce                                                     Report STD-15120-3-0001 

Office of Inspector General                                                                   July 2003


OIG Comments

We reaffirm our calculation of $6.5 million of funds to be put to better use over the next two
years. NOAA’s response did not include details to support its calculation of slightly more than
$1 million. Also, we do not agree with NOAA’s rationale for rejecting the OIG calculations, as
follows:

1. Fixed Costs

      The cost of the surveys that we used to calculate the funds to be put to better use were based
      on NOAA’s obligations of firm fixed-price contract task orders (see Appendix B). NOAA
      issued these task orders to the contractors for a fixed price to obtain hydrographic surveys for
      certain areas, inside and outside of the critical survey backlog, identified in the statements of
      work. We agree with NOAA that certain fixed costs for the contractor can be reduced by
      having the contractor do additional work outside the critical backlog areas. However, we
      disagree that critical backlog funds can be used to pay for the additional work. NOAA
      receives separate funding that can be used for the additional work.

2. Water Depth

      Water depth was considered in our analysis. We believe that during negotiations with the
      government, survey contractors, as a matter of prudent business practice, take into account
      the relevant factors, including water depth, topography, and hazards to navigation, that will
      impact their operating costs and, therefore, the firm fixed prices of the task orders. For this
      reason, the uniform cost per square nautical mile of the task orders used in our analysis
      reflects the mitigating influence of deep water, where appropriate. In addition, our analysis
      was based on the entire universe, not a sample, of the 12 task orders that NOAA issued to
      hydrographic surveyors during FYs 2001 and 20021. These task orders included surveys in a
      wide variety of areas—East and West Coasts, Gulf of Mexico, and Alaska—and each area
      contains varying topography, obstacles to navigation, and water depth.

3. Survey Area Classification

      The four task orders that NOAA cites covered areas that were all outside of the critical
      survey backlog included in its National Survey Plan and, therefore, were appropriately
      incorporated into our analysis. This classification is based on documents, which include a
      summary and printouts from its Geographic Information System, that a NOAA official
      provided to us during our audit fieldwork. As we point out in our report, documentation of
      all transactions and other significant events is essential in establishing effective control over
      the critical survey backlog.



1
    Based on task orders awarded as of 7/31/02.




                                                  22                                            

